Case: 18-14884

Date Filed:
(1 of 9)
03/17/2020

Page: 1 of 8

Pet. App. 1a

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14884

D.C. Docket No. 2:18-cr-00168-LSC-TFM-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JARODERICK HARDY,
Defendant - Appellant.

Appeal from the United States District Court
for the Middle District of Alabama

(March 17, 2020)
Before ED CARNES, Chief Judge, ROSENBAUM, and BOGGS, * Circuit Judges.
BOGGS, Circuit Judge:

*

Honorable Danny J. Boggs, United States Circuit Judge for the Sixth Circuit, sitting by
designation.

Case: 18-14884

Date Filed:
(2 of 9)
03/17/2020

Page: 2 of 8

Jaroderick Hardy appeals his conviction for being a felon in possession of a
firearm, 18 U.S.C. § 922(g)(1), on the ground that the Terry stop that led to the
discovery of the firearm was unconstitutional under the Fourth Amendment. We
affirm.
I
At around 1:21 a.m. on Wednesday, November 8, 2017, a resident of the
Spring Valley neighborhood in Montgomery, Alabama, called 911 to report that she
could hear someone outside her home. The caller reported that she had heard the
same noises the previous two nights, but she did not look outside and so was unable
to provide a description of what had made the noise. Montgomery Police Officer
Joshua Howell arrived outside the caller’s home seven minutes later, at around 1:28
a.m. At the subsequent suppression hearing, Howell testified that he understood that
he was responding to a “prowler call,” a common term in police parlance. After
arriving outside the home, Howell patrolled the immediate area for a few minutes,
but saw no one. He then began to leave the neighborhood. At around 1:35 a.m., as
he was driving out of the neighborhood, Howell saw Hardy walking by himself at
the intersection of Spring Valley Road and Adler Drive. The intersection is
approximately 0.3 miles—or around a five-minute walk—away from the caller’s
home. At the time, Hardy was dressed in loose-fitting, all-black clothing, which

2

Case: 18-14884

Date Filed:
(3 of 9)
03/17/2020

Page: 3 of 8

Howell knew to be common for those who commit property crimes in the
neighborhood.
Howell stopped his police car, got out, and approached Hardy. Howell
testified that he did this because Hardy was in the vicinity of where the 911 call had
been made, it was around 1:30 a.m. on a Wednesday, and because Hardy was dressed
in all black and was the only person walking in the neighborhood at the time. Howell
asked Hardy where he was coming from and where he was going. Hardy said that
he was heading home from the store where he had just purchased some cigarillos,
which he displayed to Howell. Given his familiarity with the area, Howell knew
that the nearest store to the intersection was closed at the time, and that the second
nearest store, Singh’s Mart, was about a mile and a half away.
Howell then told Hardy to “stand still,” and asked him if he was armed. Both
parties acknowledge that Hardy’s interactions with Howell up to that point were
consensual and that the encounter became a nonconsensual Terry stop only
thereafter. According to Howell, Hardy was “evasive” with his answers and also
said “don’t shoot me” several times, which Howell said further heightened his
suspicions. Although Howell later acknowledged that he did not observe any visible
bulge in Hardy’s clothing that would have suggested the presence of a weapon, he
nevertheless proceeded to frisk Hardy, which revealed a handgun in the waistband
of Hardy’s pants.
3

Case: 18-14884

Date Filed:
(4 of 9)
03/17/2020

Page: 4 of 8

Prior to trial, Hardy filed a motion to suppress the evidence recovered by
Howell during his search. A magistrate judge then conducted an evidentiary hearing,
where Howell was the only witness. Although the magistrate judge recommended
that the evidence be suppressed, the district judge disagreed and denied the motion
without a further hearing. 1 Hardy then pled guilty pursuant to a plea agreement that
allowed him to preserve the right to appeal the order denying his motion to suppress.
He was sentenced to fifteen months of imprisonment. This appeal followed.
II.

DISCUSSION

A. Standard of Review
We review a district court’s denial of a motion to suppress as a mixed question
of law and fact. United States v. Delancy, 502 F.3d 1297, 1304 (11th Cir. 2007).
Accordingly, we review de novo the district court’s application of law to facts but
review its factual findings for clear error, with the facts construed in the light most
favorable to the prevailing party below. United States v. Folk, 754 F.3d 905, 910
(11th Cir. 2014) (citation omitted).
B. Reasonable Suspicion

1

Hardy claims that it was inappropriate for the district court to decide the motion without rehearing
the evidence, citing cases that suggest there is reversible error whenever the district court rejects a
magistrate judge’s credibility determinations without a rehearing. See, e.g., United States v.
Cofield, 272 F.3d 1303 (11th Cir. 2001). However, the district court did not reject the magistrate
judge’s credibility determinations nor his factual findings. Indeed, the district court largely
incorporated all of the magistrate judge’s factual findings into its order. The district court merely
disagreed with the magistrate judge’s legal conclusions.
4

Case: 18-14884

Date Filed:
(5 of 9)
03/17/2020

Page: 5 of 8

A law-enforcement officer may conduct a brief, investigatory stop of an
individual if there is a “reasonable, articulable suspicion that criminal activity is
afoot.” Illinois v. Wardlow, 528 U.S. 119, 123 (2000); see also Terry v. Ohio, 392
U.S. 1, 27 (1968). Despite reasonable suspicion being a less demanding standard
than probable cause, a Terry stop cannot be based on an officer’s “inchoate and
unparticularized suspicion or ‘hunch.’” Terry, 392 U.S. at 27; Wardlow, 528 U.S.
at 123–24. When evaluating reasonable suspicion, we consider the totality of the
circumstances, which must be viewed in “light of the officer’s special training and
experience.” United States v. Matchett, 802 F.3d 1185, 1192 (11th Cir. 2015). This
is because “behavior, seemingly innocuous to the ordinary citizen, may appear
suspect to one familiar with [criminal] practices.” Ibid. (citation omitted); see also
Terry, 392 U.S. at 27 (noting that a reasonable suspicion must be based on “the
specific reasonable inferences which [an officer] is entitled to draw from the facts in
light of his experience”).
Courts have articulated specific factors that, when present, may support a
finding of reasonable suspicion. Among others, these include: presence in a highcrime area, Wardlow, 528 U.S. at 124; nervous or evasive behavior, ibid.;
unprovoked flight or conspicuous avoidance of police, United States v. Hunter, 291
F.3d 1302, 1306 (11th Cir. 2002); a visible bulge in the individual’s clothes that
could signify a gun, Pennsylvania v. Mimms, 434 U.S. 106, 112 (1977);
5

or

Case: 18-14884

Date Filed:
(6 of 9)
03/17/2020

Page: 6 of 8

corroboration of reports or tips to the police, United States v. Lindsey, 482 F.3d 1285,
1291 (11th Cir. 2007). While the presence of simply one of these factors, standing
alone, cannot serve as the basis for a Terry stop, reasonable suspicion is often found
when more than one of these factors are present. See, e.g., Wardlow, 528 U.S. at
124.
We hold that there was reasonable suspicion for a Terry stop and search of
Hardy. First, Officer Howell was not in the neighborhood based on a mere “hunch”
but was responding to a specific type of 911 call, a “prowler” call. Such calls were
not uncommon for that area, which had a high rate of property crime. Second,
Hardy’s all black clothing—while it could be innocuous—raised Howell’s
suspicions when observed at 1:30 a.m. on a weeknight. According to Howell, dark
clothing was something that officers dealt with daily when responding to criminal
calls at nighttime. In other words, someone who was committing or likely to commit
property crimes (i.e, a “prowler”) would likely be wearing all black at that time of
night. Third, Hardy was the only person that Howell encountered during his drive
through the neighborhood, and he was in close proximity to the caller’s house. This,
too, would have likely raised suspicions about whether he could have been
responsible for the “prowler” noises that the caller had heard. Finally, Hardy’s
account of how he had gone to the store to purchase cigarillos, though possible,
seemed unlikely. Evidence in the record showed that the only store open at the time
6

Case: 18-14884

Date Filed:
(7 of 9)
03/17/2020

Page: 7 of 8

was a mile and a half—or a thirty-minute walk—away from the caller’s house. This
meant that when Howell encountered Hardy, Hardy would have been on the tail end
of an hour-long round trip to the store just to purchase a few cigarillos at 1:35 in the
morning on a weeknight. It was reasonable for Howell to have viewed Hardy’s story
with at least some skepticism.
All of these factors served to increase Officer Howell’s already heightened
suspicions (from the 911 call) and did little to point to Hardy’s non-involvement in
the purported “prowler” incident. 2 Put differently, nearly every additional piece of
information that Howell acquired during his interaction with Hardy raised further
suspicions about Hardy’s possible criminal activity instead of alleviating them. The
information that Howell acquired “operate[d] to distinguish” Hardy from being a
normal bystander or a normal pedestrian. United States v. Ballard, 573 F.2d 913,
916 (5th Cir. 1978). 3 Indeed, “where nothing in the initial stages of the encounter
serves to dispel [an officer’s] reasonable fear for his own or others’ safety, he is
entitled . . . to conduct a carefully limited search[.]” Terry, 392 U.S. at 30.

2

In support of his argument, Hardy relied heavily on an unpublished opinion. However, it is our
policy that “[u]npublished opinions are not binding precedent.” United States v. Izurieta, 710 F.3d
1176, 1179 (11th Cir. 2013). For that reason, we have no occasion to decide whether such
unpublished cases are distinguishable or not, and we do not imply any view about the correctness
of their reasoning or result.
3
In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc), we adopted as
binding precedent all decisions of the former Fifth Circuit handed down before October 1, 1981.
7

Case: 18-14884

Date Filed:
(8 of 9)
03/17/2020

Page: 8 of 8

Importantly, even if Hardy’s actions were open to innocent explanations, that
does not necessarily render the Terry stop unconstitutional. “A reasonable suspicion
of criminal activity may be formed by observing exclusively legal activity,” United
States v. Gordon, 231 F.3d 750, 754 (11th Cir. 2000), and “[e]ven in Terry, the
conduct justifying the stop was ambiguous and susceptible of an innocent
explanation.” Wardlow, 528 U.S. at 125. Terry recognized that an officer could
stop a person simply “to resolve the ambiguity” created by that person’s actions.
Ibid. Officer Howell’s attempts at resolving that ambiguity only served to further
heighten his suspicions.
III.

CONCLUSION

Hardy’s conviction is AFFIRMED.

8

Case: 18-14884

Date Filed:
(9 of 9)
03/17/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

March 17, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-14884-CC
Case Style: USA v. Jaroderick Hardy
District Court Docket No: 2:18-cr-00168-LSC-TFM-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Carol R. Lewis, CC at (404) 335-6179.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 1 of 17

Pet.App. 1b

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
JARODERICK HARDY,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

2:18-cr-00168-LSC-TFM

MEMORANDUM OF OPINION AND ORDER
I.

Introduction
The magistrate judge to whom the defendant’s “Motion to Suppress” (doc.

16) and the United States’ “Response to Defense Motion to Suppress” (doc. 21)
were referred has entered a Report and Recommendation recommending that the
motion to suppress be granted. (Doc. 24.) The magistrate judge found that the
detaining officer lacked reasonable suspicion to conduct a lawful Terry stop. The
United States timely filed an objection to the magistrate judge’s Report and
Recommendation (Doc. 28). After now having thoroughly reviewed the entire
record, this Court finds that the magistrate judge’s Report and Recommendation is

1

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 2 of 17

not due to be adopted and accepted. Rather, for the following reasons, the motion
to suppress is due to be denied.
II.

Background
On November 8, 2017, at 1:21 a.m., the resident of 400 West Wilding Drive

called the Montgomery Police Department (“MPD”) and informed the operator
that she heard someone making noise outside her house and that this was the third
night in a row she heard someone outside her house. The responding police officer,
Joshua Howell (“Officer Howell”), who had nine months’ experience as a patrol
officer on the night shift in the neighboring district and who was familiar with the
caller’s Spring Valley neighborhood, arrived at the resident’s home at 1:28 a.m.,
only seven minutes after the 911 call. Given that dispatch told Officer Howell that
the resident “could hear someone around her house,” Officer Howell treated the
call as a prowler call.
After arriving at the caller’s residence and failing to locate the source of the
sound, Officer Howell drove around to investigate the immediate area. Officer
Howell was familiar with the neighborhood, which was adjacent to his normal
patrol district, and he knew that it was a “high crime area.” Officer Howell knew
that that “property crime,” including burglary, was typical in this neighborhood.

2

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 3 of 17

Officer Howell had himself responded to burglary calls in this neighborhood in the
past and knew that it was not uncommon for burglary suspects to be armed.
At 1:32 a.m., only 11 minutes after the resident made a call reporting that
“someone” was making noise outside her house, Officer Howell encountered the
defendant at the intersection of Adler and Spring Valley, which is only 0.3 miles
from the residence, about a six-to-seven minute walk. Officer Howell did not see
anyone else on the street other than the defendant. Based on his familiarity with the
neighborhood, Officer Howell knew that it was it was uncommon for people to be
out and about at 1:32 a.m. on a weeknight in this neighborhood. In addition, the
defendant’s all-black clothing provided further evidence in Officer Howell’s
calculation that the defendant was connected to the prowler call. Officer Howell
knew that the MPD received calls on a daily basis describing criminal suspects
wearing all-black clothing.
When Officer Howell engaged the defendant in conversation, the defendant
responded evasively to Officer Howell’s inquiries as to where the defendant was
coming from and whether the defendant was armed. The defendant told Officer
Howell that he was headed home from the store, but the nearest store had been
closed for an hour and a half, and the nearest open store, Singh’s Market, was
approximately a mile and a half away, a thirty-minute walk. Officer Howell found

3

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 4 of 17

the defendant’s claim that he walked thirty minutes to a store and thirty minutes
back in the middle of the night in a high crime neighborhood just to get cigarillos to
be unbelievable.
After noting the defendant’s black clothing, evasive responses, unbelievable
story for why he was out at 1:30 a.m. on a weeknight in a high crime area that often
features property crime, standing only a six-to-seven minute walk from an 11minute-old prowler call, Officer Howell testified that he believed the defendant was
not only connected to the prowler call, but that the defendant was armed. Officer
Howell testified that the defendant’s conduct in reaching for his pockets further
created officer safety concerns and influenced Officer Howell’s decision to frisk the
defendant for weapons. In addition to reaching into his pockets once, the defendant
also kept his hands at his sides near his pockets during the entire encounter, which
made Officer Howell nervous. Officer Howell knew that pockets could be where
weapons are stored. Officer Howell instructed the defendant to stand still and
informed the defendant that he would pat him down for weapons. Howell asked the
defendant if he was armed, which resulted in the defendant pleading with Officer
Howell not to shoot him, another bizarre act. The defendant complied with Officer
Howell’s commands to stand still and put his hands out to his sides. Officer Howell
testified that “don’t shoot me” is not a normal response to the question of whether

4

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 5 of 17

a person is armed, which further made Officer Howell suspicious that the
defendant was armed. Officer Howell started his frisk at the front of the waistband
where he immediately felt the pistol grip of a weapon. The weapon was secured and
the defendant was charged with its possession.
III.

Standard of Review
Following a timely written objection, the standard of review for a magistrate

judge’s report and recommendation is de novo. 28 U.S.C. § 636(b)(1). De novo
review requires the court to conduct an independent consideration of factual issues
based on the record. Jeffrey S. by Ernest S. v. State Bd. of Educ. of State of Ga., 896
F.2d 507, 513 (11th Cir. 1990). “If the magistrate makes findings based on the
testimony of witnesses, the district court is obliged to review the transcript.” Id.
IV.

Discussion
The Terry stop and subsequent pat down for weapons were lawful, and

therefore the evidence obtained during the stop will not be suppressed. On the
basis of the late hour, the high-crime neighborhood, the defendant’s temporal and
geographic proximity to a prowler call, the defendant’s all-black clothing, and the
defendant’s evasive conduct and unbelievable story, Officer Howell had a
reasonable suspicion that there was criminal activity afoot and that the defendant
was connected to the prowler call. This justified a lawful Terry stop. Furthermore,

5

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 6 of 17

the defendant’s reaching for his pockets and the fact that burglary suspects are
often armed provided reasonable suspicion that the defendant was armed and
justified Officer Howell’s pat down for weapons.
A.

The seizure

The defendant seeks to suppress evidence under the Fourth Amendment’s
protection from unreasonable searches and seizures. See U.S. Const. amend. IV.
Courts can order the suppression of evidence obtained in unreasonable searches
and seizures. United States v. Gilbert, 942 F.2d 1537, 1541 (11th Cir. 1991).
However, not all law enforcement encounters constitute “seizures” and merit
scrutiny under the Fourth Amendment. United States v. Jordan, 635 F.3d 1181, 1185
(11th Cir. 2011). An encounter only becomes a seizure when an officer, “by means
of physical force or show of authority, has in some way restrained the liberty of a
citizen.” Terry v. Ohio, 392 U.S. 1, 19 n. 16 (1968). Police can stop and detain a
person for investigative purposes if the officer has a reasonable suspicion supported
by articulable facts that criminal activity “may be afoot,” even if the officer lacks
probable cause. United States v. Sokolow, 490 U.S. 1, 7 (1989) (quoting Terry, 392
U.S. at 30).
There are three categories of law enforcement-citizen interactions: (1)
consensual police-citizen exchanges; (2) temporary detentions; and (3) full-scale

6

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 7 of 17

arrests. United States v. Perez, 443 F.3d 772, 777 (11th Cir. 2006). The first two
categories are at issue in this case given that the decisive concerns are when the
consensual encounter became a seizure, and whether the detention and
accompanying pat down were supported by reasonable suspicion.
The first category of encounters, consensual and non-coercive encounters,
are not seizures and do not implicate any sort of scrutiny under the Fourth
Amendment. Jordan, 635 F.3d at 1186. The mere fact that a law enforcement
officer approaches an individual on the street or asks him to answer some questions
does not create a seizure. Florida. v. Royer, 460 U.S. 491, 497 (1983). A law
enforcement encounter remains consensual if, considering all of the surrounding
circumstances, “a reasonable person would feel free to decline the officers’
requests or otherwise terminate the encounter.” Florida v. Bostick, 501 U.S. 429,
436 (1991).
A consensual encounter only becomes a seizure if there is either (a) an
application of physical force, even if extremely slight, or (b) a show of authority to
which the subject yields. California v. Hodari D., 499 U.S. 621, 625 (1991). Relevant
factors include:
Whether a citizen’s path is blocked or impeded; whether identification
is retained; the suspect’s age, education and intelligence; the length of
the suspect’s detention and questioning; the number of police officers

7

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 8 of 17

present; the display of weapons; any physical touching of the suspect,
and the language and tone of voice of the police.
Perez, 443 F.3d at 778.
Officer Howell’s stern command to “stand still” at 1:33 of the body camera
footage was a show of authority sufficient to indicate a seizure pursuant to Hodari
D. and Bostick. Hodari D. stated that tone matters, and the tone of Officer Howell’s
command clearly demonstrated his intention that the defendant remain where he
was. As per the standard set in Bostick, this command initiated a seizure in that a
reasonable person would not feel as if he could terminate the encounter where a law
enforcement officer instructs him to remain still and informs him that he will be
frisked. The defendant took a step back, but did not turn and run or display any sort
of combative or uncooperative behavior beyond pleading with Officer Howell not
to shoot him. Therefore, the defendant clearly complied with Officer Howell’s
show of authority, indicating that the seizure had in fact begun when Officer
Howell ordered him to stand still.
Prior to the command to stand still, the encounter remained consensual.
When Officer Howell exited his car and approached the defendant to question him,
he did not block his path, did not retain his identification, and did not draw his
weapon. Officer Howell simply asked the defendant a series of questions, including

8

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 9 of 17

where he was coming from, where he was going, and whether he was armed. As
noted above in Hodari D., a seizure does not occur until an officer applies physical
force or displays a show of authority to which a citizen yields. Up until this point,
Officer Howell had not touched the defendant nor issued any directive or displayed
a show of authority that would cause a reasonable person to believe his liberty was
restrained. As stated in Royer, the mere fact that an officer approaches an individual
on the street and asks a series of questions does not turn a consensual encounter
into a seizure.
Certainly, the consensual encounter became a seizure when Officer Howell
ordered the defendant to raise his hands at his sides and frisked the Defendant.
The significance of determining that the seizure began about a minute earlier, when
Officer Howell instructed the defendant to stand still, is that the defendant’s
response of “please don’t shoot me” would have happened after the seizure had
already occurred. Therefore, the defendant’s conduct in pleading “please don’t
shoot me,” which Officer Howell believed created further suspicion that the
defendant was armed, is likely excluded from the reasonable suspicion analysis.
However, as will be explained below, there was already sufficient evidence from the
totality of the circumstances prior to Officer Howell’s command to stand still that

9

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 10 of 17

created reasonable suspicion that the defendant was connected to the prowler call
and that the defendant may have been armed and dangerous.
B.

Reasonable suspicion for a Terry stop

To determine whether an investigatory stop is lawful under the Fourth
Amendment, “we first ascertain whether the stop was justified at its
inception.” United States v. Griffin, 696 F.3d 1354, 1358 (11th Cir. 2012).
Temporary detentions are governed by Terry, which held that “where a police
officer observes unusual conduct which leads him reasonably to conclude in light of
his experience that criminal activity may be afoot,” the officer may detain the
suspicious person and make “reasonable inquiries” aimed at confirming or
dispelling his suspicions. Minnesota v. Dickerson, 508 U.S. 366, 372–73, (1993)
(quoting Terry, 392 U.S. at 30). Whereas full-scale arrests require probable cause,
Terry stops only require that an officer have “a reasonable suspicion supported by
articulable facts that criminal activity ‘may be afoot.’” Griffin, 696 F.3d at 1358
(quoting Sokolow, 490 U.S. at 7).
The mere fact that a temporary detainee’s conduct was ambiguous and
susceptible to innocent explanation does not establish a violation of the Fourth
Amendment. Illinois v. Wardlow, 528 U.S. 119, 125 (2000). The reasonable
suspicion standard for Terry stops “accepts the risk that officers may stop innocent

10

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 11 of 17

people.” Id. at 126. While officers must be able to articulate more than an
“inchoate and unparticularized suspicion or ‘hunch’” of criminal activity, id. at
124 (quoting Terry, 392 U.S. at 27), courts cannot reasonably demand scientific
certainty from law enforcement officers. Id. at 125. Furthermore, courts must look
at the totality of the circumstances of each case to determine whether the detaining
officer has a particularized and objective basis for suspecting wrongdoing. United
States v. Arvizu, 534 U.S. 266, 273 (2002). Officers may draw reasonable inferences
about the cumulative information available to them as informed by their training
and experience. Id.
Factors that appear innocent in isolation may warrant further investigation
when taken together. Arvizu, 534 U.S. at 274. For example, in Sokolow, 490 U.S. at
3, the Supreme Court reversed the Ninth Circuit and held that Drug Enforcement
Administration agents had reasonable suspicion that the defendant was
transporting illegal drugs on the basis of the following six factors concerning the
defendant’s conduct:
(1) he paid $2,100 for two airplane tickets from a roll of $20 bills; (2)
he traveled under a name that did not match the name under which his
telephone number was listed; (3) his original destination was Miami, a
source city for illicit drugs; (4) he stayed in Miami for only 48 hours,
even though a round-trip flight from Honolulu to Miami takes 20
hours; (5) he appeared nervous during his trip; and (6) he checked
none of his luggage.

11

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 12 of 17

Id. While each of these factors alone may have innocent explanations, under a
“totality of the circumstances” analysis, they create reasonable suspicion justifying
a valid stop. Id. at 8. The Ninth Circuit had held that on the basis of these factors,
“there was no evidence of ongoing criminal behavior, and thus that the agents’
stop was impermissible.” Id. at 6. The Supreme Court rejected this “overly
mechanistic” requirement to identify at least one factor demonstrating evidence
of ongoing criminal activity in order to establish reasonable suspicion. Id. Sokolow
clarified that the reasonable suspicion analysis “does not deal with hard certainties,
but with probabilities.” Id. at 8. Determinations of reasonable suspicion are made
on a “case-by-case determination of reasonable articulable suspicion based
on all the facts.” Id. at 6.
Here, there were enough specific, articulable facts prior to Officer Howell’s
seizure of the defendant to support a determination that Officer Howell had a
reasonable suspicion that the defendant was involved in criminal activity: (1)
Officer Howell was responding to a 911 call that someone was outside of a
resident’s home; (2) the call was made at 1:21 a.m. on a weeknight in a high crime
neighborhood; (3) after seeing no one else in the area, Officer Howell located the
defendant in close temporal and geographic proximity to the residence; (4) the
defendant was wearing all black clothing; (5) the defendant was evasive and

12

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 13 of 17

provided an unbelievable story about making an hour long walking trip to a store to
get cigarillos.
Officer Howell reasonably treated the call as a prowler call when he
responded and investigated the residence and surrounding area. The resident of
400 West Wilding Dr. reported that “someone” was outside her house and that
this was the third night in a row that she heard someone outside her home. The fact
that the resident did not visually identify the source of the sound is not significant
in using this call, together with other pieces of evidence, to create a reasonable
suspicion of criminal activity. When dispatch relayed the call to Officer Howell,
they simply told him that the resident heard someone outside her home.
Officer Howell was familiar with the neighborhood, despite it not being in his
normal patrol area, due to his personal experience in responding to burglary calls in
the neighborhood, which abutted his normal patrol area. Officer Howell also knew
from the daily MPD roll call that this area was a high crime neighborhood that often
featured property crimes, including burglary. While presence in a “high crime
area” cannot alone create a reasonable suspicion of criminal activity, this factor is
among the relevant contextual considerations in a Terry analysis. Wardlow, 528
U.S. at 124 (citing Adams v. Williams, 407 U.S. 143, 144 (1972)).

13

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 14 of 17

As noted in Arvizu, officers may draw on their training and experience in
making inferences from the evidence available to them. The Supreme Court also
recognizes that based on their experience, law enforcement officers can make
observations about facts and behavior and infer criminal activity in situations that
would elude a layman. Ornelas v. United States, 517 U.S. 690, 700 (1996). When
Officer Howell proceeded to drive by the residence and investigate the surrounding
neighborhood, he did not see anyone until he located the defendant standing on the
sidewalk only a six to seven minute walk away from the residence and only 11
minutes after the call. The close temporal and geographic proximity afforded the
defendant ample time to possibly have been the source of the sound outside the
caller’s home. Furthermore, the defendant was wearing all black clothing, which
Officer Howell knew from experience is a type of attire regularly reported in
connection with similar criminal calls.
Officer Howell had good reason to question the defendant and dispel the
question as to whether criminal activity was afoot. Yet this Court does not need to
determine whether these facts alone are sufficient to create a reasonable suspicion
for a Terry stop because Officer Howell had not yet initiated a seizure. However,
the responses to Officer Howell’s consensual questioning of the defendant, the
defendant’s evasive conduct, and his voluntary provision of an unbelievable story

14

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 15 of 17

added additional facts that under the totality of the circumstances generated a
reasonable suspicion to support a lawful Terry stop.
C.

Reasonable suspicion for a Terry frisk

Law enforcement officers “may take reasonable action, based upon the
circumstances, to protect themselves during investigative detentions.” United
States v. Hastamorir, 881 F.2d 1551, 1556 (11th Cir.1989). Following a legitimate
stop, officers may conduct a pat down and frisk detainees for weapons if the officer
has a reasonable suspicion that he is dealing with an individual who may be armed
and dangerous. Terry, 392 U.S. at 27. “Great deference is given to the judgment of
trained

law

enforcement

officers

‘on

the

scene.’” United

States

v.

Chanthasouxat, 342 F.3d 1271, 1276 (11th Cir. 2003). Furthermore, an “officer
need not be absolutely certain that the individual is armed; the issue is whether a
reasonably prudent man in the circumstances would be warranted in the belief that
his safety or that of others was in danger.” Terry, 392 U.S. at 27.
Furthermore, the type of crime that an officer suspects to be afoot can
support a reasonable suspicion that an individual is armed. Griffin, 696 F.3d at 1359
(citing United States v. Moore, 817 F.2d 1105, 1108 (4th Cir. 1987)). In Moore, the
Fourth Circuit explicitly asserted that the suspected crime of burglary, which often

15

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 16 of 17

involves weapons, provides support for a determination of reasonable suspicion to
frisk for weapons:
The circumstances surrounding the stop support the officer’s belief
that a further frisk for weapons was warranted. The hour was late, the
street was dark, the officer was alone, and the suspected crime was
burglary, a felony that often involves the use of weapons.
817 F.2d at 1108.
Here, Officer Howell had a reasonable suspicion that the defendant was
involved in a property crime, which creates a strong suspicion that the defendant
was armed and dangerous. Officer Howell knew from his experience that the
neighborhood was known for property crimes and that burglars are often armed.
The facts here are similar to those in Moore. Here, just like in Moore, the officer was
alone, it was dark outside, the hour was late, and most significantly, the suspected
crime was a property crime, which, as Officer Howell testified, often involves
weapons.
Furthermore, the defendant’s conduct, namely his reaching for his pockets,
further created suspicion that the defendant was a danger to Officer Howell. While
the defendant only reached for his pockets once, and did not flee or make any
sudden movements, he did keep his hands at his sides by his pockets during the
encounter. Officer Howell, informed by his experience as a law enforcement
officer, knew that pockets can be places where weapons are stored.
16

Case 2:18-cr-00168-LSC-TFM Document 39 Filed 08/07/18 Page 17 of 17

In summary, the Terry doctrine empowers law enforcement officers to
temporarily detain individuals under certain circumstances to determine whether
the individuals are involved in criminal activity. This Terry stop and subsequent pat
down for weapons was lawful, and the evidence gathered will not be suppressed.
V.

Conclusion
Upon review of the record, the Court finds the magistrate judge’s Report

and Recommendation (doc. 24) is not due to be adopted and accepted but is
REVERSED. The Motion to Suppress (doc. 16) is hereby DENIED.
DONE and ORDERED on August 7, 2018.

_____________________________
L. Scott Coogler
United States District Judge
160704

17

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 1 of 10

Pet. App. 1c
IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
UNITED STATES OF AMERICA

)
)
)
)
)

v.
JARODERICK HARDY

CASE NO. 2:18-cr-168-LSC

REPORT AND RECOMMENDATION OF THE MAGISTRATE JUDGE
Pursuant to 28 U.S.C. § 636(b)(1) this case was referred to the undersigned United States
Magistrate Judge for review and submission of a report with recommended findings of fact and
conclusions of law. The defendant, Jaroderick Hardy (“Hardy” or “Defendant”) was charged in
an indictment returned on May 1, 2018. The Indictment charged Hardy, with one count of
possession of a firearm and ammunition by a convicted felon in violation of 18 U.S.C. §
922(g)(1). See Doc. 1. Pending before this Court is the Defendant’s Motion to Suppress (Doc.
16) and the United States’ Response to Defense Motion to Suppress (Doc. 21). The Court held
an evidentiary hearing on June 11, 2018.

Based on the evidence presented to the Court,

arguments of the parties, and for the reasons set forth herein, the Magistrate Judge recommends
that the motion to suppress (Doc. 16) be GRANTED.
I. FACTUAL BACKGROUND
The parties agree that the facts of the case are essentially not in dispute. On November 8,
2017 around 1:21 a.m. the Montgomery Police Department (“MPD”) received a 911-call from a
resident on Wilding Drive. The caller said she could hear someone outside the front of her home
and that she heard the same noises the two previous nights. The caller did not look outside her
home; thus, she was unable to provide any description of anyone or verify at all that the noise
was made by a person. In addition, the caller said she did not want the police to visit her home.
Page 1 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 2 of 10

Officer Howell arrived on scene at approximately 1:28 a.m. The home is in the Spring Valley
neighborhood which is a completely residential area. Per the caller’s request, Officer Howell did
not stop or make further contact with the caller. Instead, Officer Howell made a drive by
inspection around the home as he attempted to discern who or what made the noises. Seeing
nothing which he could discern as the source of the noise, Howell drove away to expand his
search.
At approximately 1:35 a.m. Howell saw Hardy walking on the sidewalk at the
intersection of Spring Valley Road and Adler Road which is approximately 0.30 miles from the
scene. Hardy had on all black attire including a black hoodie. At the time, Howell had been a
police officer 9 months, but he knew Spring Valley is a high crime area with respect to property
crimes such as burglary, breaking and entering, and theft crimes.

From his training and

experience, Howell knew the all black clothing was consistent with those who commit property
crimes in Spring Valley and that there was an extremely high likelihood that Hardy or anyone
else out in the wee morning hours on a week day in Spring Valley would have a firearm
concealed on his person. Howell got out of his patrol car, stopped Hardy and asked him where
he was going. Hardy said that he was coming from the store and headed to his mother’s house.
From his experience Howell knew that only two stores were within walking distance of his
present location and that one of the two stores would have been closed for business for several
hours. Howell never asked follow up questions to ensure the store Hardy mentioned were the
same stores Howell had in mind. During this brief encounter Hardy had a cigarillo in one hand
and with another hand pulled a cell phone from his pants pocket. Howell became nervous and
asked Hardy if he had any weapons on him. Hardy said no. Howell asked again and in Howell’s
view, Hardy was evasive in his answer. Howell said in his experience the people he encounters
Page 2 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 3 of 10

answer that question directly by either yes or no. The evasive answer coupled with what Howell
described as a funny look in Hardy’s demeanor made him conclude Hardy did have a weapon.
Howell asked again and Hardy denied having any weapon on him. Howell did not believe Hardy
but he saw no outward objective signs that led him to conclude otherwise. Hardy had on loose
fitting clothes and a loose fitting hoodie; thus, Howell could not see any bulges or other evidence
consistent with an armed person. Howell told Hardy to extend his arms.

Howell felt around

Hardy’s waistband and immediately found a pistol tucked in Hardy’s waistband. Hardy claimed
the pistol belonged to his cousin. Shortly thereafter, while talking back and forth, Hardy made
statements about receiving the weapon a few days ago and that he was on probation. Officer
Howell eventually placed Hardy under arrest.
II.

MOTION TO SUPPRESS

Hardy moves to suppress the evidence obtained from the pat down conducted during the
Terry stop. See Doc. 16. Hardy asserts that the officer lacked reasonable suspicion to conduct
the search and therefore all physical and testimonial items recovered must be suppressed. Id. He
also filed his notice of intent to use certain evidence at the evidentiary hearing. See Doc. 20. The
Government filed its response on June 8, 2018. See Doc. 21. The Government asserts that
Officer Howell did have reasonable suspicion. Specifically, the United States argues that the
officer knew the neighborhood was a high crime area known for property crimes and Hardy was
in the general vicinity of a place where a 911-call had been made late in the evening. Further,
Hardy wore dark clothes and in the officer’s opinion was acting suspiciously, so the frisk was
done for officer safety since individuals who commit property crimes frequently carry firearms.
The Court held an evidentiary hearing on the matter on June 11, 2018 and heard
testimony from Officer Joshua Howell. The Court also received evidence in the form of a map,
Page 3 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 4 of 10

911 calls, service report, and video footage from the officer’s body camera. The Court also
heard arguments from counsel after testimony.
III.

LAW AND DISCUSSION

Hardy seeks suppression under the Fourth Amendment, which guarantees “[t]he right of
the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures.” U.S. CONST. AMEND. IV. Warrantless searches and seizures are per se
unreasonable unless an exception applies. Arizona v. Gant, 129 S. Ct. 1710, 1716, 173 L.Ed.2d
485 (2009) (quoting Katz v. United States, 389 U.S. 347, 357, 88 S. Ct. 507, 514, 19 L.Ed.2d 576
(1967)).
“The Fourth Amendment protects individuals from unreasonable search and seizure.”
U.S. CONST. IV; United States v. Purcell, 236 F.3d 1274, 1277 (11th Cir. 2001). A seizure
takes place “whenever a police officer accosts an individual and restrains his freedom to walk
away.” United States v. Brignoni-Ponce, 422 U.S. 873, 878, 95 S. Ct. 2574, 45 L. Ed. 2d 607
(1975).
The Supreme Court has identified at least three separate categories of policecitizen encounters in determining which level of Fourth Amendment scrutiny to
apply: (1) brief, consensual and non-coercive interactions that do not require
Fourth Amendment scrutiny, Florida v. Bostick, 501 U.S. 429, 115 L. Ed. 2d 389,
111 S. Ct. 2382 (1991); (2) legitimate and restrained investigative stops short of
arrests to which limited Fourth Amendment scrutiny is applied, Terry v. Ohio, 392
U.S. 1, 20 L. Ed. 2d 889, 88 S. Ct. 1868 (1968); and (3) technical arrests, fullblown searches or custodial detentions that lead to a stricter form of Fourth
Amendment scrutiny, Brown v. Illinois, 422 U.S. 590, 45 L. Ed. 2d 416, 95 S. Ct.
2254 (1975).
United States v. Perkins, 348 F.3d 965, 969 (11th Cir. 2003).
At issue in this case are the first two categories. Brief, consensual and non-coercive
interactions between police and citizens do not require any particular level of suspicion on the
part of the officer and do not constitute a seizure under the Fourth Amendment. United States v.
Page 4 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 5 of 10

Griffin, 696 F.3d 1354, 1360 (11th Cir. 2012) (quoting Muehler v. Mena, 544 U.S. 93, 101, 125
S. Ct. 1465, 161 L. Ed. 2d 299 (2005)). The second category – investigatory stops short of arrest
– are governed by Terry v. Ohio, 88 S. Ct. 1868 (1968), 392 U.S. 1, 20 L. Ed. 2d 889. When
determining if reasonable suspicion exists for a Terry stop, the court looks to whether “the
officer has a reasonable suspicion supported by articulable facts that criminal activity may be
afoot,’ even if the officer lacks probable cause.”

United States v. Griffin, 696 F.3d at

1358)(quoting United States v. Sokolow, 490 U.S. 1, 7, 109 S. Ct. 1581, 104 L. Ed. 2d 1 (1989)).
“[I]n determining whether the officer acted reasonably in such circumstances, due weight must
be given, not to his inchoate and unparticularized suspicion or ‘hunch,’ but to the specific
reasonable inferences which he is entitled to draw from the facts in light of his experience.”
Terry, 392 U.S. at 27, 88 S. Ct. at 1883. Courts look to the totality of the circumstances to
ascertain “whether the detaining officer has a particularized and objective basis for suspecting
legal wrongdoing.” United States v. Arvizu, 534 U.S. 266, 273, 122 S. Ct. 744, 151 L. Ed. 2d
740 (2002). Yet, in evaluating the totality of the circumstances, the court may not consider each
fact in isolation. United States v. Hunter, 291 F.3d 1302, 1306 (11th Cir. 2002). Rather,
“[b]ased upon that whole picture the detaining officers must have a particularized and objective
basis for suspecting the particular person stopped of criminal activity.” United States v. Cortez,
449 U.S. 411, 417-18, 101 S. Ct. 690, 66 L. Ed. 2d 621 (1981).
Turning to the case at hand, the evidence shows that the very early interaction between
Hardy and Officer Howell fell into the first category of interactions – specifically a brief
interaction which did not implicate the Fourth Amendment. See, e.g., Florida v. Bostick, 501
U.S. 429, 434, 111 S. Ct. 2382, 115 L. Ed. 2d 389 (1991) (“[A] seizure does not occur simply
because a police officer approaches an individual and asks a few questions.”). Officer Howell
Page 5 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 6 of 10

testified that the unrecorded 30 seconds of his interaction with Hardy entailed Howell asking
Hardy to explain his presence and actions. The body-cam footage does not have sound for the
first thirty seconds and also begins shortly after the initial interaction. Regardless, the Court
finds Officer Howell’s testimony credible that he came upon Hardy at the intersection of Spring
Valley Road and Adler Road (approximately 0.30 miles from the location of the 911-caller’s
residence) and Hardy stated he had been coming to or from the store. However, the interaction
quickly converts to a Terry stop when Officer Howell informed Defendant that he would do a pat
down. Though there was no audio leading into the interaction, at the point the audio starts it is
clear that no reasonable person would have felt free to terminate the encounter given Officer
Howell’s statement that he was going to do a pat-down for weapons.

Further, given the

questions and statements by Defendant Hardy it is clear he did not consent to the search and
appeared afraid with statements of “please don’t shoot me.” Officer Howell was polite, but firm
in his insistence that he was going to conduct a pat-down for weapons even though Defendant
stated he did not have a weapon. Officer Howell told Hardy to put his hands out to his sides,
proceeded to frisk him, and immediately found the 9-millimeter handgun.
To determine whether the pat down/frisk was reasonable, the Court must look to the
totality of the circumstances leading to the encounter between Hardy and Officer Howell and
decide whether reasonable suspicion exists. This case is very similar to the circumstances
presented in United States v. Heard, --- F. App’x ---, 2018 U.S. App. 3447, 2018 WL 823895
(11th Cir. Feb. 12, 2018). When viewing the totality of the circumstances of the encounter, the
Court concludes that reasonable suspicion was lacking at the time Officer Howell began giving
Hardy orders. The Government argues the following facts support reasonable suspicion. Officer
Howell encountered Hardy at 1:35 a.m. less than 15 minutes from the time a 911-caller reported
Page 6 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 7 of 10

a possible prowler approximately 0.30 miles away. Hardy was wearing dark clothes and walking
in a high crime area known for property-related crimes. Officer Howell also did not believe
Hardy when he stated he was going to/from the store as the closest store had been closed since
around midnight. Officer Howell also indicated the Defendant was acting funny in his opinion.
The fact Hardy was in the general neighborhood of the West Wilding residence in no way links
Hardy to the actual noises heard by the 911-caller. In fact, the 911-caller stated that she heard
sounds outside her residence, she did not give a description of a person or even give enough
detail to confirm that a person made the concerning sounds.

The Court in no way faults the

caller in her actions. The caller’s voice sounds as that of an elderly woman who was afraid.
Nonetheless, the call so lacked enough useful information that Howell might as well have been
looking for a ghost. Here, the 911 call as a matter of fact is merely a means to account for
Howell’s presence in the Spring Valley neighborhood that morning and nothing more. Howell
had no crime evident at the scene, no description of a perpetrator or that there was truly a
perpetrator, no means to know in which direction the perpetrator might be headed or how the
perpetrator came or went such as by foot, bike, or motor vehicle. When Officer Howell came
upon Hardy, had a clone of Hardy been on the opposite sidewalk, Officer Howell had no more
reason to question or suspect the clone than he did Hardy. The same would hold true if Howell
had gone a completely different direction and encountered another person. While the facts are as
what they are, the Court cannot ignore that at the point where Howell first lays eyes on Hardy, he
had no reasonable articulable suspicion that Hardy did anything other than walk the streets
during the early morning hours in a high crime area while wearing dark clothes or had any
connection whatsoever to the 911- call.

As Officer Howell rightly said on the stand, absent the

Page 7 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 8 of 10

call, in his mind, his search would have been improper as Hardy was not committing a crime
when he saw him and any person may walk the streets at any time in whatever attire they choose.
The Court concludes from the facts and circumstances, Howell acted on a hunch that
Hardy had a concealed weapon. The facts at hand are quite similar to those in Heard. As the
Court views the facts, the facts are less favorable to the government than the factual scenario in
Heard. The temporal and geographical links are weak because Officer Howell saw Hardy more
than a quarter of a mile away over ten minutes after Howell came to the scene, and an
interminable amount of time after the noises which generated the 911 call. Additionally as
reiterated in Heard, signs of nervousness and apparent refusal to cooperate are “insufficient to tip
the balance to reasonable suspicion.” --- F. App’x at ---, 2018 U.S. App. 3447 at * 21. 2018 WL
823895 at * 8. “We must credit the officers’ common sense conclusions about [Defendant’s]
behavior. Yet we have consistently held that a refusal to cooperate, without more, does not
furnish the minimal level of objective justification needed for a detention or seizure.” Id. at ---,
2018 U.S. App. 3447, at *22, 2018 WL 823895 at * 8 (citations, internal quotations, and
modifications omitted). Factors like known criminal activity in an area; time of day; proximity,
both temporal and geographic, to reported suspicious activity; unusual nervousness; and refusal
to cooperate can certainly contribute to reasonable suspicion. However, ultimately, this case
hinges on Officer Howell’s gut instinct that Defendant was someplace where he should not have
been potentially doing something he should not have been doing. While Officer Howell was
absolutely right as to whether Hardy had a firearm, the means must justify the ends not vice
versa.1 Simply put the court agrees that from the testimony and the video evidence that Officer

The Court notes that there was nothing malicious about Officer Howell’s conduct and
that with a few more questions at the time, he may have been able to satisfy the particularized
and objective basis for suspecting legal wrongdoing. However, based on the facts and
1

Page 8 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 9 of 10

Howell or any reasonable person might conclude Hardy was likely up to no good this evening.
The discovery of the firearm certainly bears out the conclusion. Unfortunately, nothing objective
or sufficiently weighty was before Howell at the time of the search to indicate Hardy was up to
criminal no good (emphasis supplied).
As the Court finds that articulable reasons suspicion did not exist at the inception of the
Terry stop or thereafter before the discovery of the firearm, the stop violated the Fourth
Amendment.

Therefore, the gun and ammunition seized and the subsequent incriminatory

statements warrant suppression.
While it is unfortunate from the standpoint of societal protection that a felon caught red
handed in possession of a firearm may escape the consequences of his behavior, Fourth
Amendment safeguards must be paramount. The sparse facts known to Howell during his
encounter with Hardy are those which law enforcement confront at times, that is situations where
law enforcement officers act upon a hunch that criminal activity (a hunch which they think at the
time is objectively reasonable suspicion) is afoot and discover that criminal activity is indeed
afoot. While such hunches are part of what officers must rely upon for survival, they alone are
short of the reasonable suspicion necessary to sustain a prosecutable case. While the ultimate
crime uncovered by mere hunches may escape prosecution, in such instances law enforcement
yet fulfills its duty to protect and serve the public. The public is protected from the criminal
activity because the instrumentality of crime is taken away from the criminal and the rights of the
public, to remain secure in their personal liberties remain intact. Otherwise, Constitutional

circumstances here, the Government’s case falls short. Yet, this finding does not negate that
Officer Howell ultimately removed a weapon from a person who is legally barred from having a
firearm which also provides a benefit to society independent of prosecution.
Page 9 of 10

Case 2:18-cr-00168-LSC-TFM Document 24 Filed 06/14/18 Page 10 of 10

safeguards would sway and hinge upon mere hunches instead of objectively reasonable,
articulable suspicion.
IV.

CONCLUSION

Accordingly, it is the RECOMMENDATION of the Magistrate Judge that Defendant
Hardy’s Motion to Suppress (Doc. 16) be GRANTED.
It is further ORDERED that the parties file any objections to this Recommendation on or
before June 26, 2018.

Any objections filed must specifically identify the findings in the

Magistrate Judge’s Recommendation to which the party is objecting. Frivolous, conclusive or
general objections will not be considered by the District Court. The parties are advised that this
Recommendation is not a final order of the court and, therefore, it is not appealable.
Failure to file written objections to the proposed findings and recommendations in the
Magistrate Judge's report shall bar the party from a de novo determination by the District Court
of issues covered in the report and shall bar the party from attacking on appeal factual findings in
the report accepted or adopted by the District Court except upon grounds of plain error or
manifest injustice. Nettles v. Wainwright, 677 F.2d 404 (5th Cir. 1982); see Stein v. Reynolds
Securities, Inc., 667 F.2d 33 (11th Cir. 1982); see also Bonner v. City of Prichard, 661 F.2d 1206
(11th Cir. 1981, en banc) (adopting as binding precedent all of the decisions of the former Fifth
Circuit handed down prior to the close of business on September 30, 1981).
DONE this 14th day of June, 2018.
/s/Terry F. Moorer
TERRY F. MOORER
UNITED STATES MAGISTRATE JUDGE

Page 10 of 10

